Report No. IE-2008-002        March 31, 2008




           Inspections and Evaluations

            2007 Evaluation of the
       Federal Voting Assistance Program
                     in the
            Department of Defense
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
                              DoD Voting Assistance Program
                                                    March 31, 2008




What Was Identified
The Inspectors General of the Military Departments
characterized their 2007 DoD voting assistance programs as
effective in accordance with the provisions of section 1566, title
10, United States Code. However, there continue to be
opportunities to improve the provision of voting information and
materials to absentee voters. The Army, Navy, Air Force, and
Marine Corps reported varying degrees of compliance with DoD
Directive 1000.04, “Federal Voting Assistance Program
(FVAP),” April 14, 2004. The Undersecretary of Defense for
Personnel and Readiness issued a Memorandum on “Guidance
in Implementing Voting Assistance Program” on September 19,
2007, that provided interim guidance to the Services, pending
the formal revision of DoDD 1000.04. Each of the Services
operate with their respective Service instructions.



How It Can Be Improved

Recommendation: The Under Secretary of Defense for
Personnel and Readiness and the Service IGs should develop
mutually acceptable metrics and standards for assessing
effectiveness and compliance of Services’ and DoD’s Voting
Assistance Programs.
Table of Contents


Objective and Scope                                                                   1

Summary of Service IG Reports                                                         1

Conclusion                                                                            2

Background                                                                            2

Results                                                                               6

     Implementation of the DoD Voting Assistance Programs

Recommendation                                                                      15

Management Comments                                                                 15

Appendixes
     A. Scope and Methodology                                                       16
     B. Prior Coverage                                                              18
     C. USD(P&R) 2007 Memorandum                                                    19
     D. Department of the Army Inspector General Report                             21
     E. Department of the Navy Inspector General Report                             25
     F. Department of the Air Force Inspector General Report                        34
     G. Marine Corps Inspector General Report                                       40
     H. Management Comments                                                         53
     I. Acronym List                                                                55
     J. Report Distribution                                                         56




                                              Department of Defense Office of Inspector General
                                                                             Report No. IE08-002
This Page Intentionally Blank




                      Department of Defense Office of Inspector General
                                                   Report No. IE08-002
Objective and Scope

        The objective of this Department of Defense (DoD) Voting Assistance Program (VAP)
        evaluation is to consolidate the Services’ VAP assessment results into a single DoD-wide
        report for Congress for calendar year 2007. The four Service reports are at Appendices
        D, E, F, and G. This year’s assessment did not evaluate the Services’ standards and
        metrics for effectiveness. 1



Summary of Service IG Reports

        In general the Services found that their programs were effective and compliance. The
        oversight programs of the Office of the Federal Voting Assistance Program (FVAP)
        office and military Services continue to identify opportunities to improve the
        effectiveness and compliance aspects of the VAP.

        1. Effectiveness. All four Service IGs reported that, in general, the Services are working
           diligently to ensure that their respective Voting Assistance Programs are effective.
           Our evaluation found there is a need for explicit metrics for assessing effectiveness.

        2. Compliance. All four Service IGs reported that, in general, the Services’ Voting
           Assistance Programs are compliant with the policies and instructions in DoD
           Directive 1000.04. This report summarizes their reports.

            Given the size of the Department of Defense and the peculiarities and the status of
            forces around the world, achieving 100 percent compliance in this or any other DoD
            program is a challenge.

            One area that continues to be a challenge is the dissemination of the “hand-delivered”
            Federal Post Card Application by January 15 of each year. The root cause may be the
            practicality of the hand-delivered requirement, or it may be that delivery so early in
            the calendar year is expecting too much. With this year’s provision 2 to allow both
            hand-delivery and/or electronic delivery, future assessments may show an increase in
            compliance with this requirement.




1
 No prior assessment has addressed this standard and metrics issue.
2
 USD(P&R) Memorandum for Secretaries of the Military Departments, “Guidance in Implementing Voting
Assistance Programs,” September 19, 2007.
                                                    1       Department of Defense Office of Inspector General
                                                                                              Report No. IE08-002
Conclusion

        Without common metrics and targets, any reporting process among dissimilar
        units is relegated to a subjective assessment of effectiveness and compliance.
        a. Gauging Compliance. It may not be pragmatic to expect each Service to attain 100%
            compliance on all items in order to be rated "compliant." Therefore, three questions
            arise:
            1. On a particular item, what level of compliance (90%, 80%, 60%) constitutes the
                 minimum acceptable level to be rated compliant for that item?
            2. How many items can be less than 100% before the Service is rated non-compliant?
            3. Are outcome metrics more appropriate to measure compliance?

        b. Variation in collection methods. While methods of data collection differed among the
           Service IGs, it is not clear whether the variations in data collection methods affect the
           quality of the conclusions. 3


Background

        Goal of the Federal Voting Assistance Program. The goal of the FVAP is to ensure
        that Service members and their spouses or dependents everywhere and voters residing
        overseas receive information on absentee voting. Information includes registration and
        voting procedures, dates of scheduled elections for federal offices, and points of contact
        for additional assistance and voting materials--such as absentee ballots. Service voting
        assistance officers (VAOs) are required to expeditiously obtain and disseminate
        information and voting forms to voters. VAOs are also required to personally assist
        voters for all elections for federal offices. Each Service is required to establish and
        maintain a voting assistance Web site.

        The most notable support activities include Voting Assistance Officer training (on site
        and Web-based); a voting assistance guide with state-by-state information; the monthly
        publication, Voting Information News, which contains timely information on upcoming
        elections this is in the monthly publication and a “to-do” list for Unit VAOs; and the
        FVAP Web site (www.fvap.gov), which provides voting assistance and information to
        uniformed absentee voters, their spouses and eligible dependents, and U.S. voters
        residing overseas.




3
 We may review this question (of variation in data collection methods) in a future report. However, at this time, we
do not have sufficient data to conclude anything meaningful.
                                                         2         Department of Defense Office of Inspector General
                                                                                                     Report No. IE08-002
        The FVAP Office submits a quadrennial report to the President and the Congress after
        each Presidential election and summarizes the effectiveness of assistance programs
        legislated by the Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA).
        Report requirements include:

                •   A statistical analysis of voter participation by Service members.

                •   A statistical analysis of voter participation by nonmilitary personnel overseas.

                •   A description of State-Federal voting registration and election cooperation.

        Therefore, the FVAP report provides valuable information on the effectiveness of the
        voting assistance program as measured by actual voter participation. The most recent
        report on “The Federal Voting Assistance Program” was issued in October 2005,
        following the 2000 Presidential Election.


        Governing Statute. Section 1566, title 10, United States Code, “Voting assistance;
        compliance assessments; assistance,” as amended, specifies the voting assistance role of
        the Department of Defense Inspector General (IG) and that of the IGs of the military
        Services.

        DoD Policy and Service Regulations. The Under Secretary of Defense for Personnel
        and Readiness (USD [P&R]) is responsible for administering the Federal Voting
        Assistance Program (FVAP) for the Secretary of Defense. 4 The USD (P&R) established
        the FVAP Office to manage the program. Pending release of an updated DoD Directive
        1000.04, the USD (P&R) issued interim guidance to address issues identified for
        improvement. 5 This memorandum stated that guidance and direction should be used as a
        baseline and “may be adjusted to meet specific requirements and cultures within each
        Service.” Principal changes contained in this interim guidance were:

            •   Streamlined delivery of the Federal Post Card Application (FPCA)--provision
                added to permit electronic distribution of FPCA and receipt verification in lieu of
                face-to-face contact.
            •   Adjusted the ratio requirement for VAOs vs unit population--authorization to
                adjust ratio to ensure coverage
            •   Lowered grade requirements for assignment of VAOs--flexibility to assign
                “quality individuals with enough authority to get the job done.”
            •   Clarifying the use of civilians as Installation VAOs (IVAOs)--requesting that
                they be stabilized during the 18 month period from October 2007 through March
                2009.



4
 DoD Directive 1000.04, “Federal Voting Assistance Program (FVAP),” April 14, 2004.
5
 USD(P&R) Memorandum for Secretaries of the Military Departments, “Guidance in Implementing Voting
Assistance Programs,” September 19, 2007.
                                                    3       Department of Defense Office of Inspector General
                                                                                              Report No. IE08-002
        Each Service supplements the directive with Service-specific regulations and
        instructions. 6

                                                             Provide:
                                                                DoD Directive
                                                                VAO Training
                                  USD (P&R)                     Voting Guide
                                  FVAP Office                   FVAP Web site
                                                                Program Oversight


                                                             Provide:
                     Military Services                          Service instructions
                        Military Services                       Service Web sites
                             Military Services
                                 Military Services              Voting Materials
                                                                Service-level oversight


                                                             Assign VAOs
                                 Installation &              Monitor VAO performance
                               Unit Commanders


                                                             Provide:
                                Voting Assistance               Voting Information
                                 Officers (VAO)                 Voting Materials
                                                                Training and Assistance


                              Uniformed Absentee             Register and Vote
                              Voters & Dependents


                                                             Compile voting results
                                      States                 Administer Elections



                                Figure 1. Voting Assistance Program Elements


        Military Services Voting Assistance Programs. Figure 1 illustrates the major elements
        of the Military Services voting assistance programs. The VAO ensures that Service
        members and their spouses or dependents everywhere and voters residing overseas
        receive information about absentee voting, including registration and voting procedures,
        polling places, dates of scheduled elections for federal offices, and points of contact for
        additional assistance and voting materials--such as absentee ballots.

        The Service IGs are required to review and gauge the FVAP in their respective Services
        and provide a report annually to the DoD IG assessing compliance and effectiveness.

6
 Army Regulation 608-20, “Army Voting Assistance Program,” October 28, 2004.
Office of the Chief of Naval Operations Instruction 1742.1B, “Navy Voting Assistance Program,” May 15, 2007.
Air Force Instruction 36-3107, “Voting Assistance Program,” September 10, 2003.
Marine Corps Order 1742.1A (with Changes 1-2), “Voter Registration Program,” May 14, 2002.

                                                       4        Department of Defense Office of Inspector General
                                                                                                  Report No. IE08-002
        Prior Year Recommendations

        DoD IG Report No. IE-2007-004, “Evaluation of the Voting Assistance Program,” March
        31, 2007, (evaluation of the 2006 program) recommended that the USD (P&R)
        implement four changes. The first three were incorporated in to the interim guidance
        unchanged; the fourth was included, but modified. USD(P&R) addressed all four
        recommendations in his interim guidance. 7

         Item No.                   Recommendation                           Adopted         Modified
            1        Publish guidance to the Services clarifying                 X
                     paragraph 5.2.1.4.2 of DoD Directive 1000.04
                     regarding the commander’s flexibility in
                     establishing the ratio of Unit Voting Assistance
                     Officers to unit members
            2        Revise DoD Directive 1000.04 to provide                     X
                     flexibility with regard to pay grades required of
                     personnel assigned Voting Assistance Officer
                     duties.
            3        Publish guidance to the Services emphasizing                X
                     the importance and benefits of appointment of
                     civilian personnel as Installation Voting
                     Assistance Officer duties.
            4        Revise DoD Directive 1000.04 to authorize                                   X
                     appointment of civilian personnel as Unit Voting
                     Assistance Officers where feasible.


                              Table 1. Prior Year Recommendations




7
 USD(P&R) Memorandum for Secretaries of the Military Departments, “Guidance in Implementing Voting
Assistance Programs,” September 19, 2007.
                                                    5        Department of Defense Office of Inspector General
                                                                                               Report No. IE08-002
Results
Service IG Assessments of Effectiveness
While there are no commonly held metrics on targets for assessing effectiveness, the Service IG
reported that their respective Service VAPs are effective, as follows:

•   The Army reported that their Voting Assistance Program was effective.

•   Overall, the Navy IG reported they have an effective Voting Assistance Program. However,
    the Navy IG stated that while they have an established voting program in place, the need for
    greater effort by leadership and VAOs to promote voter awareness and communicate
    information is clear.

•   The Air Force IG reported that throughout the Air Force, the overwhelming majority of
    wings and installations effectively implemented DoD policy, directives, and procedures and
    have established viable Federal Voting Assistance Programs. In addition, they stated that Air
    Force leaders, at all levels, emphasized the importance of each Airman exercising his/her
    right to vote.

•   The Marine Corps IG reported that they have an effective Voter Assistance Program.




                                                6       Department of Defense Office of Inspector General
                                                                                          Report No. IE08-002
Service IG Assessment of Compliance

Summary

        All Service IGs reported that the Service VAPs are compliant with DoD Directive
        1000.4. DoD Directive 1000.4 delineated the required five areas on personnel
        assignment; training; material distribution; communication and information network; and
        commanders involvement.

Personnel Assignment. The purpose of this requirement is to assign quality individuals with
enough authority as VAOs to get the job done. (See Table 2, “Personnel Assignment.”)

        Army: The Army IG reported that the Army VAP was compliant. Many units did not
        meet the grade requirements for VAOs indicated in DoD Directive 1000.4. Some VAOs
        were Second Lieutenants or Junior Non-Commissioned Officers. However, interim
        guidance 8 allows flexibility on grade requirements to favor assignment of VAOs who are
        interested and dedicated.

        Navy: The Navy IG reported that the Navy VAP was compliant.

        Air Force: The Air Force IG reported that the Air Force VAP was compliant. The Air
        Force IG identified five findings in the personnel assignment section. Two findings were
        on the ratio of VAOs to assigned members within a unit. Additionally, three findings
        were on the appropriate grade levels that may be designated as VAOs or UVAOs.

        However, all five of the situations leading to these findings are compliant with interim
        guidance.

        Marine Corps: The Marine Corps IG reported that the USMC VAP was compliant.




8
 USD(P&R) Memorandum for Secretaries of the Military Departments, “Guidance in Implementing Voting
Assistance Programs,” September 19, 2007.
                                                    7       Department of Defense Office of Inspector General
                                                                                              Report No. IE08-002
                                   Table 2. Personnel Assignments


Training. The purpose of this requirement is to ensure that VAOs are receiving required
training. (See Table 3, “Training.”)

       Army: The Army IG reported that the Army VAP was compliant. The Army IG reported
       that VAO training remains inconsistent. Their report stated that several newly assigned
       VAOs were still in the train-up phase prior to the inspection team visiting their location.
       Some VAOs received training in person, but most VAOs utilized computer based training
       (on-line or FVAP training work shop CD). Some VAOs received no training. Instead,
       they learned their jobs through a trial and error process.

       Navy: The Navy IG reported that the Navy VAP was compliant. The Navy IG reported
       that 55 of 63 VAOs (87%) had completed required training. Training is conducted via
       FVAP workshops, Navy Knowledge On-line (NKO) portal and on the Navy Voting
       Assistance Program (NVAP) Web site. DoDD 1000.4 requires training only during even
       numbered years with elections for Federal offices. The Navy exceeded this requirement
       for 2007 by providing the training when it was not mandated.

       Air Force: The Air Force IG reported that the Air Force VAP was compliant. The Air
       Force IG noted training deficiencies at three of 120 units inspected. The VAOs did not

                                                8       Department of Defense Office of Inspector General
                                                                                          Report No. IE08-002
receive required training and failed to appropriately document the training received.
However, this requirement was not applicable for 2007 since it was not mandated in that
year.

Marine Corps: The Marine Corps IG reported that the Marine Corps VAP was
compliant. The Marine Corps IG data showed that of the 73 units inspected only 6
VAOs were not trained. The MCO 1742.1A requires that all Marines receive one hour
of annual voter training each year. Seventy out of 73 units inspected had conducted or
had voter training on their annual training plan. Two of the three non-compliant units
were re-inspected and annual voter training was completed.




                               Table 3. Training




                                        9      Department of Defense Office of Inspector General
                                                                                 Report No. IE08-002
Material Distribution. The purpose of this requirement is to ensure that adequate numbers of
Standard Form 76 (SF 76) are available for military members and their voting–age dependents to
register and request a ballot. (See Table 4, “Material Distribution.”)

       Army: The Army IG reported that the Army VAP was compliant. The Army IG
       reported that most units did not provide “in hand delivery” of the Federal Post Card
       Application (FPCA) by January 15 of each calendar year. However, unit leaders did
       verbally present the opportunity to receive and complete the registration cards. Seventy-
       percent of the soldiers surveyed responded they were given the time and opportunity to
       register and request a ballot. VAOs offered opportunities to complete a FPCA (SF 76) by
       greeting soldiers at dining room facilities and voting information tables at Post
       Exchanges, addressing unit formations, etc. The Army did not mention whether they
       held a special voting day.

       Navy: The Navy IG reported that the Navy VAP was compliant. All Navy VAOs are
       required to report completion of hand delivery of SF 76s to eligible voters by January 15,
       2008, in the Voting Information Management System (VIMS). Of 1,638 Unit
       Identification Codes (UICs) registered in VIMS, 173 (11%) had reported completion as
       of January 24, 2008. Materials are distributed electronically and “in-hand delivery.”
       Registration materials are also available on-line at www.fvap.gov as a link on the NVAP
       Web site. The Navy has designated a special day during Armed Forces Voters Week (31
       August – 07 September 2008) for dissemination of voter information and material.

       Air Force: The Air Force IG reported that the Air Force VAP was compliant. Voting
       information, to include absentee ballot registration cards, posters, and information sheets,
       were readily visible and available throughout the majority of the units inspected. At two
       of 120 installations visited, a special voting day was never designated and voting
       materials were not found. However, VAOs advertised dates of voting booths/events
       prior to elections; additionally, VAOs distributed material at various locations (e.g., post
       office, BX, etc.).

       Marine Corps: The Marine Corps IG reported that the Marine Corps VAP was
       compliant. FPCAs are being delivered to Marines in accordance with DODD 1000.4.
       Inspection results confirmed that VAOs understood and are adhering to published
       requirements. Marine VAOs used Armed Forces Voters Week and Oversees Voter
       Week as a special opportunity to disseminate voter information and materials.




                                                10       Department of Defense Office of Inspector General
                                                                                           Report No. IE08-002
                                   Table 4. Material Distribution


Communication and Information Network. The purpose of this requirement is to maintain a
visible program. (See Table 5, “Communication and Information Network.”)

      Army: The Army IG reported that the Army VAP was compliant. The Army IG
      reported that 1053 of 1269 (83%) survey respondents knew the Army had a voting
      assistance program. On several occasions personnel from the Army IG Inspections
      Division accessed the “on-line” voters assistance links and concluded on-line information
      was posted and current.

      Navy: The Navy IG reported that the Navy VAP was compliant. The Navy maintains a
      voting assistance Internet homepage that includes names and links to VAOs, procedures
      to order voting materials, and links to other federal and state voting Web sites. All 48
      units inspected has established and published a special telephone service where all calls
      are routed through a “One-Stop” Customer Service Center.


                                              11      Department of Defense Office of Inspector General
                                                                                        Report No. IE08-002
Air Force: The Air Force IG reported that the Air Force VAP was compliant. VAOs
used a variety of media and venues to inform active duty and Reserve personnel: posters,
business cards, audiovisual slide shows, newcomer orientations, commanders’ calls, unit
spouse groups, and first-term Airmen classes.

However, the Air Force IG reported that five units did not maintain voting assistance
Internet homepages, six units did not establish a special telephone service, and six
UVAOs did not provide telephone operators with contact or related information.

Marine Corps: The Marine Corps IG reported that the Marine Corps VAP was
compliant. The Marine Corps Web page includes contact information for all Major
Command Voting Officers (MCVO) and all IVAOs. The Service VAO maintains
contact with all MCVOs and IVAOs via e-mail. There are procedures on how to order
voting materials and links to all federal and state voting Web sites on the Marines Corps
Voting homepages. Inspection results confirm that MCVOs, IVAOs, and UVAOs are
aware of the telephone number and e-mail address to contact the SVAO. Two out of 73
units that were inspected during 2007 did not have point-of-contact information
maintained in their respective base/station telephone directories. The USMC has
corrected this discrepancy.




             Table 5. Communication and Information Network




                                        12      Department of Defense Office of Inspector General
                                                                                  Report No. IE08-002
Commander / Installation Level Involvement. The purpose of this requirement is to ensure
there is an increased emphasis on the voting program and associated requirements without
violating prohibited practices. (See Table 6, “Commander/Installation Level Involvement.”)

       Army: The Army IG reported that the Army VAP was compliant. The Army IG reported
       that there were no reports of commanders or commands violating the prohibited
       practices. Interviews and surveys of soldiers and VAOs revealed that their leaders
       offered soldiers the opportunity to register and vote, but did not track who registered or
       voted. VAOs referred commanders to the local legal offices when asked about certain
       events or practices.

       Navy: The Navy IG reported that the Navy VAP was compliant. The Navy IG reported
       that all activities are aware of the requirements of DoDD 1000.4 and the Office of the
       Chief of Naval Operations Instruction 1742.1B, (OPNAVINST), “Navy Voting
       Assistance Program.” Resources are available from FVAP and the Navy Voting
       Headquarters for local implementation. Written policy is contained in OPNAVINST
       1742.1B to support eligible military members and their dependents--deployed and
       dispersed--and tenant organizations. According to VAOs interviewed, they reported
       collateral duty performance is documented on evaluations (E-1 through E-6) and fitness
       reports (E-7 and above).

       Air Force: The Air Force IG reported that the Air Force VAP was compliant. At all
       levels of command, MAJCOM IG teams identified an increased emphasis on the voting
       program and associated requirements. However, two units did not develop command-
       wide awareness and assistance programs and activities during Armed Forces Voters
       Week. One unit did not have written policies to support eligible military members and
       their dependents.

       Marine Corps: The Marine Corps IG reported that the Marine Corps VAP was
       compliant. Inspection results indicated that all units inspected are in compliance. The
       IGMC inspects all Commanding General’s Inspection Programs (CGIPs) every three
       years to ensure compliance with the Marine Corps Voter Registration Program Order
       (MCO 1742.1A). During 2007, IGMC inspected eleven CGIPs and found all but one in
       compliance with all Marine Corps Voting orders and directives. The one unit was re-
       inspected and declared Mission Capable. In addition, inspection results indicated that
       command-wide awareness of the Voting Assistance Program and activities were
       developed through-out the year including Armed Forces Voters Week. Also, written
       policies have been developed to support eligible voters and VAO’s performance is
       documented in the evaluation and fitness reports.




                                               13      Department of Defense Office of Inspector General
                                                                                         Report No. IE08-002
Table 6. Commander/Installation Level Involvement




                       14     Department of Defense Office of Inspector General
                                                                Report No. IE08-002
Recommendation
    The Under Secretary of Defense for Personnel and Readiness and the Service IGs should
    develop mutually acceptable metrics and standards for assessing effectiveness and
    compliance of Services’ and DoD’s Voting Assistance Programs.


Management Comments
    USD (P&R) concurred with our recommendation.




                                          15      Department of Defense Office of Inspector General
                                                                                    Report No. IE08-002
Appendix A - Scope and Methodology

    Summary: The elimination of the requirement for DoD IG to conduct unannounced
    inspections at ten DoD installations made the Service IG assessments of compliance /
    effectiveness the entire basis for this 2007 report. Before Service IG preparation and
    submission of their 2007 reports, the DoD IG project team met individually with all of
    the Service IG FVAP representatives to review their 2006 report and compare each to the
    standard format agreed upon in 2005. During each meeting we emphasize the need to
    have consistent Service IG submissions that conformed to the standard for the 2007
    report. During these meetings it appeared that while the Service IGs would be consistent
    in reporting, they used different approaches and tools to obtain their data. This was
    confirmed on receipt of the Service IGs’ 2007 reports as depicted in Table 7.

                                          Army            Navy            Air Force            Marines

    References Cited
    DoD Directive cited as reference        Yes             Yes               Yes                 Yes
    DoD Directive                      DoDD 1000.04    DoDD 1000.04      DoDD 1000.04        DoDD 1000.04
    Memorandum from USD(P&R)           Not mentioned    Referenced         Not stated         Referenced
    Service Instruction                 AR 680-20       OPNAVINST          AFI 36-3107       MCO 1742.1A
                                                         1742.1B
    Frequency of Inspection–Service         NR              NR
                                                                            Triennial         5 year cycle
    IG
    Collection Methods
    Frequency of Inspection–Service         NR            Varies          5 year cycle          Triennial
    IG
    Frequency of Unit Inspection by         NR              NR              Unit Insp.         Biannually
    Commanding Generals                                                   (Compliance)
    Hard copy artifacts reviewed       Documentation   Documentation     Documentation         Documents
                                        Procedures      Procedures         Procedures          Procedures
    Method of selecting interviewees        NR               NR                 NR             Randomly
    Method of collecting data            Interviews      Interviews         Interviews         Interviews
                                        Data call to
                                                        Data call to       Data call to        Data call to
    Method of documenting data         Army G-1 and
                                                         field IGs          field IGs           field IGs
                                       command IGs
    Major Commands visited                Army IG         USN IG         USAF IG Direct         USMC IG
    Field Operating Agency                   NR           Direct              NR               AIRS 210 *
    Web-based surveys                        NR           11,240               NR                  NR
    Unit Self Inspections                    NR            Yes                 Yes                 NR
    Major Commands visited                    4              3                  9                   5
    Field Operating Agency                   NR             NR                  1                  NR
    Geographic Area visits                    3              3                 NR                  NR
    Installations visited                     7             NR                 NR                   8
    Units visited by Service IG              NR             NR                 NR                  59
    Units visited by Command IG              NR             51                 74                  NR
    NR – Not reported
    * See Appendix I – List of Acronyms

                   Table 7. Analysis of Service IG’s Assessment Methodology

    Consistent Reporting: The Navy, Air Force, and Marine Corps IG staffs presented their
    input in accordance with the reported counts and observations the agreed–upon format.
    In each case, where there were identified shortcomings, the report included corrective
    action(s) already taken or envisioned for the 2008 election year.
                                                 16      Department of Defense Office of Inspector General
                                                                                           Report No. IE08-002
We believe that consistency among the Service IGs in reporting both effectiveness and
compliance will permit coherent and data portrayal and rational comparison. The effect
of the differences in methodology used in collecting the data has not been determined.




                                       17      Department of Defense Office of Inspector General
                                                                                 Report No. IE08-002
Appendix B - Prior Coverage


      During the last seven years, the Government Accountability Office (GAO), DoD, and the
      Department of State have issued reports on FVAP and overseas absentee voting.
      Unrestricted GAO reports can be accessed over the Internet at www.gao.gov.
      Unrestricted DoD IG reports can be accessed at www.dodig.mil/audit/reports and
      www.dodig.mil/Inspections/IE/Reports.htm.

GAO
      GAO Report No. GAO-07-774, Elections: Action Plans Needed to Fully Address
      Challenges in Electronic Absentee Voting Initiatives for Military and Overseas Citizens

      GAO Report No. GAO-06-521, “Elections: Absentee Voting Assistance to Military and
      Overseas Citizens Increased for the 2004 General Election, but Challenges Remain,”
      April 2006

      GAO Report No. GAO-01-1026, “Elections: Voting Assistance to Military and Overseas
      Citizens Should Be Improved,” September 28, 2001

DoD
      DoD IG Report No. IE-2007-004, “Evaluation of the Voting Assistance Program,”
      March 31, 2007

      DoD IG Report No. IE-2006-001, “Evaluation of the Voting Assistance Program,”
      March 31, 2006

      DoD IG Report No. IE-2005-001, “Evaluation of the Voting Assistance Program,”
      March 31, 2005

      Secretary of Defense, “Report on DoD Actions to Support Voting Assistance to Armed
      Forces Outside the U.S.,” December 2004

      DoD IG Report No. D-2004-065, “DoD Implementation of the Voting Assistance
      Program,” March 31, 2004

      DoD IG Report No. D-2003-072, “DoD Compliance with the Uniformed and Overseas
      Citizens Absentee Voting Act,” March 31, 2003

Department of State
      United States Department of State Report No. 01-FP-M-045, “Review of Implementation
      of the Federal Voter Assistance Program,” August 2001



                                             18       Department of Defense Office of Inspector General
                                                                                        Report No. IE08-002
Appendix C - USD(P&R) 2007 Memorandum




                           19   Department of Defense Office of Inspector General
                                                                  Report No. IE08-002
20   Department of Defense Office of Inspector General
                                  Report No. IE08-002
Appendix D. Department of the Army Inspector General Report




                              21      Department of Defense Office of Inspector General
                                                                   Report No. IE08-002
22   Department of Defense Office of Inspector General
                                  Report No. IE08-002
23   Department of Defense Office of Inspector General
                                       Report No. IE08-002
24   Department of Defense Office of Inspector General
                                       Report No. IE08-002
Appendix E - Department of the Navy Inspector General Report




                               25   Department of Defense Office of Inspector General
                                                                      Report No. IE08-002
26   Department of Defense Office of Inspector General
                                       Report No. IE08-002
27   Department of Defense Office of Inspector General
                                       Report No. IE08-002
28   Department of Defense Office of Inspector General
                                       Report No. IE08-002
29   Department of Defense Office of Inspector General
                                       Report No. IE08-002
30   Department of Defense Office of Inspector General
                                       Report No. IE08-002
31   Department of Defense Office of Inspector General
                                       Report No. IE08-002
32   Department of Defense Office of Inspector General
                                       Report No. IE08-002
33   Department of Defense Office of Inspector General
                                       Report No. IE08-002
Appendix F - Department of the Air Force Inspector General
             Report




                               34    Department of Defense Office of Inspector General
                                                                       Report No. IE08-002
35   Department of Defense Office of Inspector General
                                       Report No. IE08-002
36   Department of Defense Office of Inspector General
                                       Report No. IE08-002
37   Department of Defense Office of Inspector General
                                       Report No. IE08-002
38   Department of Defense Office of Inspector General
                                       Report No. IE08-002
39   Department of Defense Office of Inspector General
                                       Report No. IE08-002
Appendix G - Marine Corps Inspector General Report




                              40    Department of Defense Office of Inspector General
                                                                      Report No. IE08-002
41   Department of Defense Office of Inspector General
                                       Report No. IE08-002
42   Department of Defense Office of Inspector General
                                       Report No. IE08-002
43   Department of Defense Office of Inspector General
                                       Report No. IE08-002
44   Department of Defense Office of Inspector General
                                       Report No. IE08-002
45   Department of Defense Office of Inspector General
                                       Report No. IE08-002
46   Department of Defense Office of Inspector General
                                       Report No. IE08-002
47   Department of Defense Office of Inspector General
                                       Report No. IE08-002
48   Department of Defense Office of Inspector General
                                       Report No. IE08-002
49   Department of Defense Office of Inspector General
                                       Report No. IE08-002
50   Department of Defense Office of Inspector General
                                       Report No. IE08-002
51   Department of Defense Office of Inspector General
                                       Report No. IE08-002
52   Department of Defense Office of Inspector General
                                       Report No. IE08-002
Appendix H – Management Comments




                           53      Department of Defense Office of Inspector General
                                                                     Report No. IE08-002
54   Department of Defense Office of Inspector General
                                       Report No. IE08-002
Appendix I - List of Acronyms


Acronyms
DoD IG         Inspector General
FPCA           Federal Post Card Application
FVAP           Federal Voting Assistance Program
FWAB           Federal Write-In Absentee Ballot
GAO            Government Accountability Office
IVAO           Installation Voting Assistance Officer
USD(P&R)       Under Secretary of Defense for Personnel and Readiness
UOCAVA         Uniformed and Overseas Civilians Absentee Voting Act
UVAO           Unit Voting Assistance Officer
VAO            Voting Assistance Officer
VAP            Voting Assistance Program




                                      55      Department of Defense Office of Inspector General
                                                                                Report No. IE08-002
Appendix J - Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)*
   Director, Federal Voting Assistance Program*
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Secretary of the Army
Chief of Staff, U.S. Army*
Inspector General, Department of the Army

Department of the Navy
Secretary of the Navy
Chief of Naval Operations*
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters*

Department of the Air Force
Secretary of the Air Force
Chief of Staff, U.S. Air Force*
Inspector General, Department of the Air Force

Combatant Command
Inspector General, Joint Staff

Non-Defense federal Organization
Office of Management and Budget

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations




                                                 56   Department of Defense Office of Inspector General
                                                                                        Report No. IE08-002
The Mission of the OIG DoD



The Office of the Inspector General promotes integrity, accountability, and improvement of
Department of Defense personnel, programs, and operations to support the Department’s mission
and to serve the public interest.




Team Members



The Inspections and Evaluations Directorate, Office of the Deputy Inspector General for Policy
and Oversight, Office of the Inspector General for the Department of Defense prepared this
report. Personnel who contributed to the report include Mr. Deane Williams, Ms. Beverly
Cornish, Team leader, Mr. William D. Means, and. LCDR William Jackson., USN.




Additional Report Copies



Contact us by phone, fax, or e-mail:
  Inspections and Evaluations directorate, Deputy Inspector General for Policy and Oversight
  COM: 703.604.9130 (DSN664.9130)
  FAX: 703.604.9769
  E-MAIL: crystalfocus@dodig.mil
  Electronic version available at: www.dodig.mil/Inspections/IE/Reports




                                                          Department of Defense Office of Inspector General
                                                                                      Report No. IE-08-002
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
Report No. IE-2007-006        September 28, 2007




      Safety and Occupational Health Accountability
                    In DoD Individual
             Performance Evaluation Reports
